No. 20-963

In CO

&upreme Court of the tiutteb Otateti
•
STEPHEN K. WALTON, SR.,
Petitioner,
V.
VIRGINIA INTERNATIONAL TERMINALS, LLC,
Respondent.

•
On Petition For Writ Of Certiorari
To The Supreme Court Of Virginia

•
BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI')

JOHN E. HOLLOWAY
Counsel of Record
TROUTMAN PEPPER
HAMILTON SANDERS LLP
222 Central Park Avenue,
Suite 2000
Virginia Beach, Virginia 23462
757-687-7724
john.holloway@troutman.com
COCKLE LEGAL BRIEFS (800) 225-6964
VVWW.COCKLELEGALBRIEFS.COM

CORPORATE DISCLOSURE STATEMENT
In accordance with United States Supreme Court
Rule 29.6, Virginia International Terminals, LLC
makes the following disclosures:
The parent of Virginia International Terminals,
LLC is the Virginia Port Authority. There is no publicly held company owning 10% or more of Virginia
International Terminals, LLC's stock.

1

TABLE OF CONTENTS
Page
INTRODUCTION

1

JURISDICTION

2

STATUTES AND REGULATIONS INVOLVED
3
IN THE CASE
STATEMENT OF THE CASE

5

ARGUMENT

8

I. THE VIRGINIA COURT'S RULING IS
WELL FOUNDED UNDER BOTH THE
8
SHIPPING ACT AND VIRGINIA LAW
Under Virginia law parties may, by
contract, shorten the limitations pe8
riod and require pre-suit notice
VIT's SOR meets all the requirements
10
of an effective contract
II. WALTON'S PREEMPTION ARGUMENT
16
IS MISPLACED
III. THERE IS NO COMPELLING REASON
16
TO GRANT CERTIORARI
CONCLUSION

19

APPENDIX
Circuit Court for the City of Norfolk, Transcript
App. 1
Excerpts, October 8, 2019

11

TABLE OF AUTHORITIES
Page
CASES
Atl. & Gulf Stevedores, Inc. v. Alter Co., 617 F.2d
397 (5th Cir. 1980)

10

Board of Supervisors v. Sampson, 235 Va. 516
8, 13
(1988)
Chavis v. Gibbs, 198 Va. 379 (1956)

11

Equitable Life Assurance Soc'y v. Brown, 187
U.S. 308 (1902)

2

Express Co. v. Caldwell, 88 U.S. (21 Wall.) 264
(1874)

14

Fed. Commerce & Navigation Co. v. Calumet
Harbor Terminals, Inc., 542 F.2d 437 (7th Cir.
1976)

12

Gooch v. Or. S. L. R. Co., 258 U.S. 22 (1922)

13

Hudson v. Jarrett, 269 Va. 24 (2005)

10

La Salle Mach. Tool, Inc. v. Maher Terminals,
Inc., 611 F.2d 56 (4th Cir. 1979)

12

Liquid Carbonic Co. v. Norfolk & W. Ry., 107 Va.
8, 13
323 (1907)
Lofthouse Mfg. v. Ports Am. Balt., Inc., 2016
A.M.C. 2540 (D. Md. 2016)

14

Massie v. Blue Cross & Blue Shield, 256 Va. 161
(1998)

8

New Zealand Kiwifruit Mktg. Bd. v. Wilmington,
806 F. Supp. 501 (D. Del. 1992)

12

Oregon v. Guzek, 546 U.S. 517 (2006)

2

111

TABLE OF AUTHORITIES — Continued
Page
Port of Tacoma v. S.S. Duval, 364 F.2d 615 (9th
Cir. 1966)

10

New Zealand Kiwifruit Mktg. Bd. v. Wilmington,
806 F. Supp. 501 (D. Del. 1992)

12

Wells v. Weston, 229 Va. 72 (1985)

11

Williamson v. Old Brogue, Inc. , 232 Va. 350
(1986)

9

STATUTES AND REGULATIONS
2

28 U.S.C. § 1257(a)

12

46 C.F.R. § 514.1(c)(3)(i) (1997)

3, 4

46 C.F.R. § 525.2(a)
46 C.F.R. § 525.2(a)(1)

13

46 C.F.R. § 525.2(a)(3)

14

46 C.F.R. § 533.3 (1983)

12

46 U.S.C. § 40101, et seq

3

46 U.S.C. § 40101(4)
46 U.S.C. § 40501(f)

13, 15, 17
10, 11, 12, 13, 15

46 U.S.C. § 41103
46 U.S.C. § 41102(c)
46 U.S.C. § 41106
Pub. L. No. 105-258, § 106(e), 112 Stat. 1902,
1907-08 (1998) (now codified as 46 U.S.C.
§ 40501(0)

4
4, 13
4

12

iv
TABLE OF AUTHORITIES — Continued
Page
Va. Code § 1-200
Va. Code § 8.01-243

3, 9
3

Va. Code § 62.1-132.10(B)

10

Va. Code § 62:1-145

18

OTHER AUTHORITIES
15 Corbin on Contracts § 83.8 (2020)

15

Restat. 2d of Contracts, § 19(2)

11

1
INTRODUCTION
At issue in this case are provisions included in Virginia International Terminals, LLC's (WIT") schedule of rates, regulations and practices ("SOR") that
(1) shortened the limitations period for personal injury
claims from two years to one year; and (2) required
prompt notice of an injury, but in no event later than
30 days from the accident. The Virginia court found
that the SOR was an enforceable contract and that the
limitations period/notice terms at issue were enforceable. Because Walton failed to give notice of his accident
and failed to file suit within one year, the court dismissed his case. This ruling was well founded under
both the Shipping Act of 1984, as amended by the
Ocean Shipping Reform Act of 1998 ("OSRA") (together, the "Shipping Act"), and Virginia law.
The Petitioner, Steven K. Walton Sr. ("Walton"), argues that because the Shipping Act (as amended) does
not preempt Virginia's statute of limitations or the absence of a notice requirement at English common law,
his suit was timely under Virginia law. This a "strawman" argument, however — no party claims federal
preemption of any state law, and the Virginia court did
not find (nor address) preemption. In fact, the timeliness of Walton's suit does not turn on the question of
preemption at all. Walton's argument fails because the
Virginia court properly applied Virginia law, which
holds that parties may shorten a limitations period or
require pre-suit notice of a claim by contract.

2
Walton also argues that the limitations/notice
terms at issue are not enforceable contract terms because they were not authorized by the Shipping Act.
There are several defects in this argument, but the
most obvious is that it is based on old case law that
interpreted provisions of the Shipping Act and associated regulations that have been repealed.
♦

JURISDICTION
In his Petition, Walton writes that "[t]his Court
has jurisdiction . . . pursuant to 28 U.S.C. § 1257(a)."
(Pet. at 2). As a general matter, this Court "possess [es]
jurisdiction to review state-court determinations that
rest upon federal law." Oregon v. Guzek, 546 U.S. 517,
521 (2006) (citing 28 U.S.C. § 1257(a)). However, "not
every mere allegation of a Federal question will suffice
to give jurisdiction." Equitable Life Assurance Soc'y v.
Brown, 187 U.S. 308, 311 (1902). The case must turn
on "a real and not a merely formal Federal question."
Id.
Walton argues that "[u]nder applicable Virginia
law, [his] land-based personal injury suit was timely"
unless Virginia law was "displaced by the authority of
the Shipping Act." (Pet. at 7-9). He then argues that
because the Shipping Act did not preempt state law, his
suit was timely. (Pet. at 7-8 & 10-20). However, this
logic is inherently flawed. The Virginia court did not
find preemption. It did not even consider preemption.
No party contends that the Shipping Act preempted

3
Virginia law. Applying Virginia contract law that parties may shorten a limitations period or require presuit notice of a claim by contract, the Virginia court
held that Walton's claim was untimely without even
considering preemption. Because the timeliness of
Walton's suit hinged on Virginia law and not federal
preemption, and because finding Walton's suit timely
would require substantive revision of Virginia contract
law, this Court lacks jurisdiction.
♦

STATUTES AND REGULATIONS
INVOLVED IN THE CASE
Walton's Petition cites "the United States Constitution, Article VI, cl. 2, The Shipping Act of 1984,
amended as the Ocean Shipping Reform Act of 1998,
46 U.S.C. § 40101, et seq., and the Code of Virginia of
1950, as amended, Sections 1-200 and Section 8.01243" as the constitutional provisions, treaties, statutes,
ordinances, and regulations involved in this case. (Pet.
at 2). As detailed below, the Supremacy Clause (Article
VI, cl. 2) of the United States Constitution is not involved in this case, nor is Virginia Code § 1-200.
The body of Walton's Petition also mentions "the
regulations promulgated [under the Shipping Act] by
the Federal Maritime Commission" (Pet. at 12) but
does not provide their text. The text of 46 C.F.R.
§ 525.2(a), which addresses marine terminal operator
schedules, is set out below:

4
§ 525.2(a) Marine terminal operator
schedules. A marine terminal operator, at its
discretion, may make available to the public,
subject to section 10(d) of the Act (46 U.S.C.
41102(c), 41103, 41106), a schedule of its
rates, regulations, and practices.
Limitations of liability. Any limitations of liability for cargo loss or damage pertaining to receiving, delivering,
handling, or storing property at the marine terminal contained in a terminal
schedule must be consistent with domestic law and international conventions
and agreements adopted by the United
States; such terminal schedules cannot
contain provisions that exculpate or relieve marine terminal operators from liability for their own negligence, or that
impose upon others the obligation to indemnify or hold-harmless the terminals
from liability for their own negligence.
•Enforcement of terminal schedules. Any schedule that is made available
to the public by the marine terminal
operator shall be enforceable by an appropriate court as an implied contract
between the marine terminal operator
and the party receiving the services rendered by the marine terminal operator,
without proof that such party has actual
knowledge of the provisions of the applicable terminal schedule.

5
(3) Contracts for terminal services.
If the marine terminal operator has an
actual contract with a party covering the
services rendered by the marine terminal
operator to that party, an existing terminal schedule covering those same services
shall not be enforceable as an implied
contract.
♦

STATEMENT OF THE CASE
Walton alleges he was injured on or about March
15, 2017 when he tripped over the blade of a forklift at
a marine terminal operated by VIT. (Pet. App'x at A35,
A40, & A41, Amended Compl. 1[11 14, 36, & 40). At the
time, he was "unplugging [refrigerated containers] so
that they could be . . . loaded onto a cargo ship." (Id.
1[ 39). He filed this case on March 11, 2019 alleging
negligence against VIT and two other defendants, and
he filed an Amended Complaint on July 12, 2019. (Pet.
App'x at A3, Trial Ct. Op. at 2).
VIT was "in the business of facilitating the transfer of cargo at the . . . terminal." (Pet. App'x at A34,
Amended Compl. It 10). As the terminal manager, VIT
published on its website an SOR. (Pet. at 4; Pet. App'x
at A132, Walton Resp. to Req. for Admission, (111[ 1-3).
The SOR in effect in March 2017 applied "to all . . . use
or occupancy" of the terminal, covered "every . . . person or entity using, coming onto, or berthing at [the
terminal]," and provided that "[u] se of the [terminal]"
constituted "an agreement to the terms and conditions

6
of th[e] SOR." (Pet. App'x at A68 & A130, SOR, Item
100(A) & Section XI). Among other things, the SOR set
forth general rules, including safety rules, applicable
on the terminal. (Pet. App'x at A69-A83, SOR, Section
II). Relevant to this case, Item 207(A) of the SOR read:
USERS must notify VIT in writing of the occurrence of loss, injury, or damage to person or
property caused by VIT immediately upon discovery, and in no event more than thirty (30)
days from occurrence, or all claims based on
the loss, injury, or damage shall be timebarred. If suit (or notice of arbitration if applicable) based on the occurrence is not filed
within one (1) year after the occurrence, the
claim shall be time-barred. If notice of loss, injury, or damage is given, or if a claim is made,
VIT must be given the opportunity to investigate the claim, including without limitation
all evidence, at the earliest practical opportunity. Time is material and of the essence.
(Pet. App'x at A71, SOR, Item 207(A)) (emphasis
added).
At the time of his alleged injury, Walton had been
a member of the International Longshoremen's Association ("ILA") Local 1970 union since 1996, had worked
as a longshoreman for 15 to 16 years, had held leadership roles with the ILA Local 1970, had regularly
attended Contract Board meetings of the Hampton
Roads Shipping Association, and was a member of the
Safety Committee. (Resp. App'x at 2-7, 10/08/2019 Tr.
at 31-32 & 34-36). He now claims that he did not know

7
that VIT had an SOR and he had no knowledge of its
terms.
Immediately after Walton allegedly tripped and
suffered "disabling injuries to his neck" (Pet. App'x at
A170, Walton Pet. for Appeal at 9), he took a photograph of the forklift that he alleges caused his injury
(Resp. App'x at 7, 10/08/19 Tr. 43:3-7). He did not notify
VIT of his injury, however, until he filed suit almost two
years later. (Pet. at 3; Pet. App'x at A133, Walton Resp.
to Req. for Admission, 11 4-5). He attached the photograph as Exhibit 1 to his Amended Complaint. (Pet.
App'x at A47, Amended Compl., Ex. 1).
In response to Walton's Amended Complaint, VIT
filed a Plea in Bar, and subsequently a Motion for Summary Judgment on its Plea in Bar, arguing that Walton
agreed to and was bound by the SOR and that his suit
was time-barred pursuant to Item 207(A) of the SOR.
(Pet. App'x at A48-A62, VIT Brf. in Support at 1-15).
The trial court granted VIT's Plea in Bar and Motion
for Summary Judgment and dismissed Walton's suit
with prejudice. (Pet. App'x at A8-A10, Trial Ct. Op. at
7-9). Walton then appealed to the Supreme Court of
Virginia, which was "of the opinion there is no reversible error" and refused Walton's petition for appeal.
(Pet. App'x at Al, Va. Sup. Ct. Ord.).
♦

8
ARGUMENT
I. THE VIRGINIA COURT'S RULING IS
WELL FOUNDED UNDER BOTH THE
SHIPPING ACT AND VIRGINIA LAW.
The Virginia court's ruling was based on two
points: (a) under Virginia law parties may, by contract,
shorten the limitations period and require pre-suit notice; and (b) VIT's SOR meets all the requirements of
an effective contract.
A. Under Virginia law parties may, by contract, shorten the limitations period and
require pre-suit notice.
Under Virginia law, a contractual limitations period shorter than otherwise applicable statutes of limitations is enforceable "if the contractual provision is
not against public policy and if the agreed time is not
unreasonably short." Board of Supervisors v. Sampson,
235 Va. 516, 520-21(1988); see Liquid Carbonic Co. v.
Norfolk & W. Ry., 107 Va. 323, 326-30 (1907) (assessing
whether a pre-suit notice provision was reasonable
and, therefore, enforceable). The Virginia Supreme
Court has repeatedly upheld contractual limitations
periods shorter than otherwise applicable statutes of
limitations. See, e.g., Sampson, 235 Va. at 520. In fact,
the Virginia Supreme Court has upheld contractual
provisions analogous to those in Item 207(A) of the
SOR. See Massie v. Blue Cross & Blue Shield, 256
Va. 161, 166 (1998) (upholding one-year contractual
limitations period); Liquid Carbonic, 107 Va. at 330

(upholding contractual requirement for 30-day presuit notice).
Without mentioning this element of the Virginia
court's opinion, Walton impliedly asks this Court to
overrule it. Contrary to the Virginia court's holding, he
asserts that his suit was timely under Virginia law because he could only be required to provide notice
within 30 days or to bring suit within one year by the
authority of a statute. (Pet. at 8-9). He appears to argue
that pre-suit notice was not required under English
common law and that Virginia Code § 1-200 makes
this absence of a requirement the rule of decision unless altered by statute.' (Pet. at 8-9). He cites no authority for this argument with respect to the Virginia
statute of limitations other than the statute of limitations itself. (Pet. at 9). Walton offers no analysis or authority to reconcile either of these arguments with the
Virginia court's holding that pre-suit notice may be required, or a limitations period may be shortened, by
contract under Virginia law. Nonetheless, he asks this
Court to hold, as a matter of Virginia law, that these
can only be achieved by statute.

Walton's argument, the Virginia Supreme
Court has specifically held that Virginia Code § 1-200 does not
lock the common law in place. See Williamson v. Old Brogue, Inc.,
232 Va. 350, 353 (1986) ("(Virginia Code § 1-200] does not mean
that common-law rules are forever chiseled in stone, never changing. The common law is dynamic, evolves to meet developing societal problems, and is adaptable to society's requirements at the
time of its application by the Court.").
1 Contradicting

10
B. VIT's SOR meets all the requirements
of an effective contract.
The Shipping Act, in 46 U.S.C. § 40501(f ), provides
that an SOR "made available to the public is enforceable by an appropriate court as an implied contract
without proof of actual knowledge of its provisions."
Courts have long held that "[a] party who makes use of
the facilities or services offered and rendered by another under the terms of a validly promulgated tariff
impliedly consents to be bound by the tariff's terms."
Atl. & Gulf Stevedores, Inc. v. Alter Co., 617 F.2d 397,
401 n.16 (5th Cir. 1980); see, e.g., Port of Tacoma v. S.S.
Duval, 364 F.2d 615, 617 (9th Cir. 1966) (filing of terminal tariff gives constructive notice). Mirroring this
case law, VIT's SOR provided that "[u] se of the [terminai]" constituted "an agreement to the terms and conditions of th[e] SOR." (Pet. App'x at A68, SOR, Item
100(A)).
Furthermore, 46 U.S.C. § 40501(f) is consistent
with Virginia law. Indeed, the Virginia Code recognizes
the existence and validity of an SOR, as it empowers
the port authority to "compile and disseminate in a single publication all port charges, rules, and practices in
effect at the several ports." Va. Code § 62.1-132.10(B).
The Virginia Supreme Court has stated that VIT's
SOR "prescribes certain conditions that must be met
by those doing business at any VIT facility. By using
the facility, [the users] agreed to those conditions."
Hudson v. Jarrett, 269 Va. 24, 31 (2005).

11
Moreover, the enforceability of the SOR as a contract is also based on common law contract principles.
Under Virginia law, "[t]he mental assent of the parties
is not requisite for the formation of a contract." Wells
v. Weston, 229 Va. 72, 78 (1985). What matters is "a
party's . . . outward expression rather than his secret
unexpressed intention." Id. Conduct manifests assent
where the party "intends to engage in the conduct and
knows or has reason to know that the other party may
infer from his conduct that he assents." Restat. 2d of
Contracts, § 19(2) (emphasis added); see Chavis v.
Gibbs, 198 Va. 379, 382 (1956) ("purchaser [of real
property] is charged with notice of all that the title paper or papers to which they refer may disclose upon
complete examination").
Walton apparently concedes that the SOR is enforceable as an implied contract (he has not argued
otherwise), but in his Argument C, Walton argues that
the specific limitations/notice SOR terms at issue here
are not enforceable because 46 U.S.C. § 40501(f) "limits the authority of a marine terminal operator to issue
a schedule of rates 'pertaining to receiving, delivering,
handling, or storing property [i.e., cargo] at its terminal." (Pet. at 20). He claims also that the Shipping Act
does not specifically authorize the limitations/notice
terms. (Id.). He then cites cases that interpreted provisions of the Shipping Act and its associated regulations
that have been repealed.
Under prior law, marine terminal operators were
required to file terminal tariffs setting forth specified terms with the Federal Maritime Commission

12
("FMC"). See 46 C.F.R. § 533.3 (1983); 46 C.F.R.
§ 514.1(c)(3)(i) (1997). Courts at that time held that
"the filing of a tariff [gave] constructive notice only of
those terms which [were] required by law to be filed"
with the FMC. La Salle Mach. Tool, Inc. v. Maher Terminals, Inc., 611 F.2d 56, 60 (4th 'Cir. 1979). Because
then-applicable law did not require terminal operators
to file provisions limiting their liability or limiting
time to sue, courts held that filing a tariff did not
provide constructive notice of such terms (and, therefore, that such terms were not binding without actual
knowledge). See, e.g., id. (no constructive notice of limitation of liability); Fed. Commerce & Navigation Co. v.
Calumet Harbor Terminals, Inc., 542 F.2d 437, 441 (7th
Cir. 1976) (no constructive notice of limitation of liability or time bar); New Zealand Kiwifruit Mktg. Bd. v.
Wilmington, 806 F. Supp. 501, 503 (D. Del. 1992) (no
constructive notice of time bar).
In 1998, OSRA removed the requirement to file a
terminal tariff or any specific tariff terms with the
FMC, instead giving marine terminal operators discretion to make a terminal tariff (now referred to as a terminal "schedule") available to the public if they wish.
Pub. L. No. 105-258, § 106(e), 112 Stat. 1902, 1907-08
(1998) (now codified as 46 U.S.C. § 40501(f)). This
change negated the pre-OSRA case law cited above
and in Walton's Petition — no terminal schedule terms
are "required by law to be filed" with FMC under
OSRA. Rather than relying on courts to determine the
effect of this change on constructive notice, OSRA's
plain language extends constructive notice to all terms

13
of a terminal schedule — thus achieving Congress' purpose of putting "a greater reliance on the marketplace"
as a means to "promote the growth and development
of United States exports through competitive and efficient ocean transportation." 46 U.S.C. § 40101(4).
OSRA therefore states that a "schedule made available
to the public is enforceable by an appropriate court as
an implied contract without proof of actual knowledge
of its provisions." 46 U.S.C. § 40501(f) (emphasis
added).
That is not to say that there are no limits on permissible terms in a terminal's SOR. Congress specified that the terms must be "reasonable." 46 U.S.C.
§ 41102(c). Likewise, as noted above, Virginia law
holds that contractual limitations on time-for-suit or
pre-suit notice must be reasonable. Sampson, 235 Va.
at 520-21. FMC regulations specify that a term in an
SOR limiting liability for cargo loss or damage "must
be consistent with domestic law and international conventions and agreements adopted by the United
States." 46 C.F.R. § 525.2(a)(1). The regulations also
prohibit clauses exculpating the terminal for negligence or providing indemnity to the terminal for its
own negligence. Id. However, these limitations do not
impair enforcement of accident notice or time-for-suit
clauses, nor do they limit any other risk management
measures associated with the storage and handling of
cargo at the terminal. Note that pre-suit notice and
time-for-suit provisions such as those in Item 207(A) of
the SOR are not exculpatory See, e.g., Gooch v. Or. S. L.
R. Co., 258 U.S. 22, 24 (1922); Liquid Carbonic, 107 Va.

14
at 329 (citing Express Co. v. Caldwell, 88 U.S. (21 Wall.)
264, 268 (1874)). Walton has not argued in this case
that the SOR terms at issue are unreasonable.
Moreover, Walton failed to cite a single post-OSRA
case finding any provision of an SOR (time bar or otherwise) unenforceable on the grounds that it was made
without statutory authorization. In fact, he cited no
post-OSRA cases at all. Instead, he cited an array of
general tariff cases, including bus and airline tariff
cases, that have nothing at all to do with the current
statutory framework for terminal SORs. (See Pet. at
20-21). That may be because post-OSRA SOR cases apply no such analysis and instead adhere to the plain
language of the statute. See, e.g. , Lofthouse Mfg. v. Ports
Am. Balt., Inc., 2016 A.M.C. 2540 (D. Md. 2016) (denying summary judgement on time bar in an SOR solely
because further discovery was needed to determine
if an invoice and fax constituted a separate "actual
contract" supplanting the SOR under 46 C.F.R.
§ 525.2(a)(3)).
Walton also argues, as part of his preemption section (Argument B) that "neither the statutory language [of the Shipping Act] nor the legislative history
evinces any Congressional intent to regulate State law
personal injury claims against marine terminal operators." (Pet. at 16). This is no doubt true — after all,
OSRA largely deregulated marine terminals. The stated
purpose of OSRA was to place "a greater reliance on
the marketplace" as a means to "promote the growth
and development of United States exports through
competitive and efficient ocean transportation." 46

15
U.S.C. § 40101(4). OSRA therefore granted terminals
discretion to publish an SOR (or not) and granted broad
latitude (subject to specific enumerated limitations as
outlined above) to establish regulations "pertaining to
receiving, delivering, handling, or storing property at
its terminal." 46 U.S.C. § 40501(f).
Safety and risk management regulations at the
terminal "pertain" to handling and storage of cargo. In
this instance, for example, Walton was preparing refrigerated containers for loading on' ship when he allegedly tripped. If the forklift was parked at a location
that hampered cargo operations and posed a risk to
longshoremen, notice of the problem would have allowed VIT to move the forklift and ensure Walton was
properly cared for. VIT also would have had an opportunity to investigate Walton's allegations. Furthermore, a shortened limitations period "is not contrary to
public policy but rather promotes the public policy behind statutes of limitations of preventing stale claims."
15 Corbin on Contracts § 83.8 (2020).
Therefore, because Walton came onto and used the
terminal premises with constructive notice of VIT's
publicly available SOR and its terms and conditions,
he was bound by those terms. Under Item 207(A) of
that contract, Walton agreed to notify VIT in writing of
any injury caused by VIT within 30 days and to bring
suit within one year and that, if he did not, his claim
would be time-barred. Because he failed to fulfill his
obligations in this case, the Virginia court properly
found that his case was time-barred pursuant to Item
207(A) of that contract.

16
WALTON'S PREEMPTION ARGUMENT IS
MISPLACED.
Walton's preemption argument is not entirely clear.
Under ordinary conceptions of federal preemption, the
doctrine does not apply here because the notice and
time-for-suit requirements at issue were imposed by the
SOR, an implied contract, and not the Shipping Act.
Ironically, Walton's argument that the Shipping Act did
not preempt Virginia law is consistent with the Virginia
court's opinion, as the Virginia court did not find or even
consider preemption — in other words, he is apparently
arguing for an affirmance of the Virginia court's disregard of the preemption concept, though he disputes
the court's interpretation of Virginia law. Under the
Shipping Act and Virginia law, the SOR is enforceable
as an implied contract, and nothing in the Shipping Act
conflicts with Virginia law on the enforceability of reasonable contract terms shortening the limitations period or pre-suit notice of accidents.
THERE IS NO COMPELLING REASON TO
GRANT CERTIORARI.
Supreme Court Rule 10 states "[a] petition for a
writ of certiorari will be granted only for compelling
reasons." Walton's Petition identifies no conflict between the decision in this case and any other court, but
he does claim that the case presents "an important
question of federal law that has not been, but should
be, settled by this Court." (Pet. at 7). To his reading, the
Virginia court's decision means that the Shipping
Act preempts "the traditional right of the States to

17
regulate land-based, personal injury tort remedies for
their citizens." (Pet. at 6). He then asserts that if the
Shipping Act "authoriz [es] schedules of rates that supersede State law" or otherwise "pre-empts State regulation of land-based personal injury remedies," then
"marine terminals throughout the United States may
. . . displace the States from regulating" tort remedies
on terminal land. (Pet. at 6-7).
While this sounds ominous, Congress' deregulation of ocean terminal management, thus placing "a
greater reliance on the marketplace" as a means to
"promote the growth and development of United States
exports through competitive and efficient ocean transportation," 46 U.S.C. § 40101(4), did not "displace the
States from regulating" tort remedies on terminal
land. If anything, deregulation gives the State broader
latitude, not less. Here, Virginia law permitted the
terms at issue in the SOR.
Further, Walton's Petition, including his question
presented, is premised on his assertion that his suit
was "timely under State law" unless preempted by the
Shipping Act. (Pet. at i, 4-9, & 21). But that is not what
the Virginia court held. It found that Walton's suit was
untimely in the absence of preemption, and Walton offers no meaningful rebuttal to this holding. To the extent he does challenge it, he asks this Court to overrule
Virginia contract law, which is beyond the bounds of
this Court's jurisdiction.
The Petition also fails to present any issue (much
less an important one) with any degree of clarity. What

18
exactly is the legal principle that limits the scope of a
terminal's SOR, other than the specific statutory/regulatory limitations that do not apply here? Are other
safety or risk management rules allowed? Why, or why
not? Given that Congress deregulated ocean terminal
management, what is the principled basis for blocking
enforcement of reasonable terminal regulations? After
all, terminals are dangerous workplaces, and it is critical that the professionals using terminal facilities act
professionally by reading and following the safety and
operating rules governing the facility. The "General
Rules" section of the SOR where the pre-suit notice and
time-for-suit provisions are found also establish safety
rules applicable on the terminal, including rules for
handling hazardous materials and dangerous cargo,
cybersecurity rules, and rules against smoking near
flammable cargo or fueling operations. (Pet. App'x at
A69-83, SOR, Section II). One job of marine terminal
operators in Virginia is to ensure the "safety, health,
welfare, convenience, and prosperity" of those using
and relying on the port. Va. Code § 62.1-145. Upholding
VIT's SOR in accordance with both federal and state
law helps advance these important objectives.
♦

19
CONCLUSION
For all the foregoing reasons, Stephen K. Walton,
Sr.'s Petition for Writ of Certiorari should be denied.
Respectfully submitted,
JOHN E. HOLLOWAY
Counsel of Record
TROUTMAN PEPPER
HAMILTON SANDERS LLP
222 Central Park Avenue,
Suite 2000
Virginia Beach, Virginia 23462
757-687-7724
john.holloway@troutman.com

